F03-W940-5

HANCOCK WHITNEY BANK
CARDHOLDER AGREEMENT
AND DISCLOSURE STATEMENT
This Cardholder Agreement and Disclosure Statement is the contract that
governs the use of a Hancock Whitney Visa® Platinum Card Account. This
Cardholder Agreement and Disclosure Statement contains (1) the terms and
conditions that bind the user of any Hancock Whitney Visa Platinum Card
Account or any Hancock Whitney Visa Platinum Card issued in connection
with the Account and (2) the disclosures required by the Federal Truth in
Lending Act. Use of the Hancock Whitney Visa Platinum Card by the
Cardholder or any Authorized User shall indicate that the Cardholder has
agreed to pay all amounts due in accordance with the terms of this Cardholder
Agreement and Disclosure Statement.
1.

Definitions. The following definitions apply to the terms used in this
Cardholder Agreement and Disclosure Statement or used in the monthly
billing statement for a Hancock Whitney Visa Platinum Card account:
(A) “Account” means the account for which a Cardholder is issued one
or more cards.
(B) “Agreement” means this Cardholder Agreement and Disclosure
Statement.
(C) “Authorized User” means any person a Cardholder has authorized
to use a Card or to obtain credit on an Account, whether or not the
Authorized User is named in the Cardholder’s application or request
for a Card or an Account.
(D) “Balance Transfer” means a balance from a loan or account that
Cardholder owes to another creditor or financial institution that
Bank allows a Cardholder to transfer to the Account.
(E) “Bank” means Hancock Whitney Bank.
(F) “Billing Cycle” means the time interval between monthly billing
statement dates for monthly billing statements issued pursuant to
the terms of this Agreement.
(G) “Card” means each Hancock Whitney Visa Platinum Card issued
by the Bank to a Cardholder.
(H) “Cardholder” means each natural person or organization, including,
without limitation, a corporation, partnership, proprietorship,
association, cooperative, estate, trust or government unit, to whom
a Hancock Whitney Visa Platinum Card is issued pursuant to the
request or application of that person or organization.
(I) “Cash Advance” means any extension of credit obtained from the
Bank or another financial institution that accepts Visa credit cards,
including cash obtained from an automated teller machine.
(J) “Closing Date” means the date on the last day of a Billing Cycle.
(K) “Margin” means the number of percentage points added to the
Prime rate defined in Section 11(A)(3) below to calculate the
applicable variable interest rate.
(L) “Monthly Periodic Rate” means the percentage rate of interest
charge imposed against the outstanding balance on a monthly
basis.
(M) “New Balance” means the balance outstanding on the Account on
the Closing Date.
(N) “Previous Balance” means the outstanding unpaid balance on the
Account at the beginning of the Billing Cycle.
(O) “Purchase” means the purchase or lease of goods and the
purchase of services and insurance from merchants or businesses
that accept Visa credit cards through the use of a Card or the
Account.
(P) “We” or “us” means Hancock Whitney Bank.
(Q) “Hancock Whitney Bank” is a wholly-owned banking subsidiary of
Hancock Whitney Corporation.

2.

Agreement. Pursuant to the Cardholder’s request or application, the
Bank has established an Account in the name of the Cardholder and
has issued one or more Cards to the Cardholder. By requesting or
applying for a Card or an Account, retaining a Card, signing a Card,
using a Card, or using the Account, the Cardholder has agreed to the
terms and conditions contained in this Agreement. This Agreement
governs the Account and the use of any Card issued to the Cardholder
in connection with the Account. The Bank agrees to pay the applicable
merchant or business, in accordance with the terms and conditions of
this Agreement, for the Purchases that the Cardholder or an Authorized
User makes with a Card, and the Bank agrees to make Cash Advances,
in accordance with the terms and conditions of this Agreement, to the
Cardholder or an Authorized User. The Cardholder authorizes the Bank
to charge the Account for all amounts the Bank pays on Purchases,
for all amounts the Bank advances to any Cardholder or Authorized
User on Cash Advances, and for all amounts the Bank advances or
pays to third parties on behalf of a Cardholder or an Authorized User,
including any amounts advanced on behalf of the Cardholder or an
Authorized User as a result of the use of a Card to obtain any services
offered by VISA U.S.A., Inc. Bank may allow a Cardholder to transfer
to the Account balances that the Cardholder owes to other creditors or
financial institutions, up to the amount of the Account credit limit that
Bank makes available for Balance Transfers. If Cardholder requests
a Balance Transfer, Cardholder agrees to monitor each account from
which a balance is being transferred and continue making the minimum
payment due on that account until the other creditor or financial
institution provides an account statement that shows the balance of
Cardholder’s other account has been paid in full, if applicable. This may
not occur until after the Balance Transfer appears on a billing statement
from Bank. Cardholder is liable for any late payments, interest charges
or disputed amounts on the other account. Cardholder is responsible
for instructing Cardholder’s other creditor or financial institution to
close Cardholder’s other account if that is Cardholder’s preference.
An increase in the ANNUAL PERCENTAGE RATE may increase the
Cardholder’s interest charges, minimum monthly payment amount, and/
or number of minimum monthly payments required to be made.

3.

Use of a Card/Account. All Cards and/or Accounts shall be used solely
for personal, family, or household purposes. The Cardholder agrees
that all Cards and Accounts shall be used solely for Purchases and/
or Cash Advances for personal, family, household or other consumer
purposes and agrees that Purchases and/or Cash Advances for
business purposes shall not be obtained through a Card or Account. The
Cardholder and any Authorized User may use a Card or the Account for
Purchases, and the Cardholder may use a Card or the Account for Cash
Advances. The Cardholder or an Authorized User must sign the panel
on the back of each Card issued to the Cardholder. The effect of using
the Account number for a Purchase or a Balance Transfer or to obtain a
Cash Advance without presenting a Card, as in a Purchase or Balance
Transfer or Cash Advance made or arranged by mail or telephone, shall
be the same as if the Card itself were presented to make the Purchase or
Balance Transfer or to obtain the Cash Advance.

4.

Notice Regarding Illegal Internet Gambling Transactions. Pursuant to
the Unlawful Internet Gambling Enforcement Act of 2006 and Regulation
GG (collectively, the “Act”), this is to notify the Cardholder that items
and transactions related to illegal Internet gambling (“Restricted
Transactions”) will not be processed through your Account(s).
Restricted Transactions include any transactions in which a gambling or
gaming business accepts payment in connection with unlawful Internet
gambling, whether by credit card, debit card, electronic funds transfers,
checks, or other means. The Bank shall have no liability whatsoever for
the refusal or return of items or transactions, or for any claims or losses
arising from or related to its refusal or return of items or transactions,
and/or its closure of your Account(s), believed by the Bank to be in
violation of the Act.

5.

Liability for Payment. The Cardholder authorizes the Bank to charge
the Account for all Purchases, Balance Transfers and Cash Advances
resulting from the use of the Card or the Account. The Cardholder shall
pay to the Bank all amounts owed on the Account, including, without
limitation, the amounts paid or advanced by the Bank on all Purchases,
Balance Transfers and Cash Advances, any interest charges assessed
on the Account, and any other fees and charges the Cardholder owes to
the Bank under the terms of this Agreement, by any method of payment
that is acceptable to the Bank provided it is in United States dollars, in
accordance with the terms of this Agreement. If the Account is a joint
Account, each Cardholder agrees to pay all amounts owed to the Bank
on the Account. Each Cardholder on a joint Account shall be jointly,
severally, and solidarily liable for the payment of all amounts owed to the
Bank on the Account, regardless of which Cardholder or Authorized User
used the Account.

6.

Authorized Users. The authorization given to an Authorized User by the
Cardholder shall continue in effect as long as the Authorized User has
possession of a Card, and the Cardholder shall be liable for the payment
of all amounts owing on the Account arising from an Authorized User’s
use of a Card during the time the Authorized User has possession of a
Card. No revocation of the authorization given to an Authorized User
by the Cardholder shall be effective or binding on the Bank until the
Cardholder recovers possession of the Card or accounts for the Card to
the Bank’s satisfaction.

7.

Credit Limit. The Bank, upon approving the Cardholder’s application for
an Account, shall establish a credit limit for the Account. The approved
credit limit will be shown on the card mailer form and on each monthly
billing statement. The Cardholder agrees not to exceed the credit limit
established for the Account. The Bank shall have the right to demand
immediate payment of any amount by which the balance owing on the
Account at any time exceeds the approved credit limit. The Cardholder
may request an increase in the approved credit limit after the Account
has been open for six (6) consecutive months. Any such increase
shall be entirely within the Bank’s sole discretion and may, in the
Bank’s sole discretion, be conditioned on a review of the Cardholder’s
personal financial circumstances and other factors that might warrant
an increase in the approved credit limit. The Bank shall have the right to
reevaluate any Cardholder’s financial condition at any time whatsoever,
and the Bank may obtain a current credit bureau report and ask any
Cardholder for current financial information in connection with any
such reevaluation. The Bank shall have the right to immediately, without
any notice whatsoever, increase or decrease the approved credit limit
or to revoke all rights to use the Account based upon the results of a
reevaluation.

8.

Transactions. The Cardholder shall retain, for verification by the monthly
billing statements sent to the Cardholder, copies of each charge ticket,
slip, or other evidence of a transaction obtained in connection with each
Purchase, Balance Transfer, Cash Advance, or other transaction on
the Account. The Bank shall provide the Cardholder with a copy of its
documentary evidence of a transaction on the Account upon receipt of
the Cardholder’s reasonable request or upon written notice of a billing
error given to the Bank in accordance with the terms of this Agreement.
Unless the documentary evidence is requested in connection with a
billing error inquiry, the Bank may, subject to applicable law, impose a
reasonable charge to cover its cost of supplying the evidence.

9.

Cash Advances. The Cardholder agrees not to permit the total of the
Cardholder’s unpaid Cash Advances, when added to the total unpaid
Purchases, Balance Transfers, interest charges, and other charges, to
exceed at any time the approved credit limit on the Account.

10. Monthly Billing Cycle. The Bank shall send the Cardholder a monthly
billing statement when there is a debit or credit balance in excess of $1.00
or when an interest charge is imposed. The monthly billing statement
shall show, among other things, all Purchases, Balance Transfers, Cash
Advances, interest charges, other charges, the minimum payment due,
the payment due date, payments made by the Cardholder, credits, the
Previous Balance on the Account, and the New Balance on the Account.
The Cardholder shall pay the Bank the full amount owed on the Account,
as shown on the monthly billing statement, within 25 days from the
billing date shown on the statement, or the Cardholder shall pay such
amount in installments in accordance with the terms and conditions of
this Agreement.
11. Truth in Lending and Related Disclosures. The words “you”, “your” and
“yours” used in this section of this Agreement refer to all Cardholders.
The words “we”, “us” and “our” used in this section of this Agreement
refer to the Bank.

(A) Interest Charges.
(1) Circumstances Under Which An Interest Charge Will Be
Imposed.
(a) Purchases. An interest charge will be imposed on
Purchases outstanding during a Billing Cycle (including
current Purchases) at the Monthly Periodic Rate for
Purchases when there is a Previous Balance outstanding
and it is not paid in full during the first 25 days of the
Billing Cycle. You may avoid paying an interest charge
on current Purchases included in the New Balance by
paying the entire New Balance in full within 25 days after
the Closing Date of the Billing Cycle during which the
current Purchases are charged to your Account.
(b) Balance Transfers. An interest charge calculated based
on the Monthly Periodic Rate for Balance Transfers will
be imposed on Balance Transfers outstanding during
a Billing Cycle. A new Balance Transfer will accrue an
interest charge from the date when the transaction is
posted to your Account until the date of the payment.
There is no time period within which to pay to avoid
interest charges on Balance Transfers.
(c) Cash Advances. An interest charge in the form of
the Monthly Periodic Rate for Cash Advances will be
imposed on Cash Advances outstanding during a Billing
Cycle. New Cash Advance transactions will accrue an
interest charge from the date of the transaction until the
date of payment. There is no time period within which to
pay to avoid these interest charges on Cash Advances.
(2) Balance Upon Which An Interest Charge Will Be Imposed.
We figure a portion of the interest charge on the Account by
applying a Monthly Periodic Rate to each of the “average daily
balances” of Purchases (including current transactions),
Balance Transfers, and Cash Advances and adding the results.
(a) To get the “average daily balance” of Purchases, we take
the beginning balance of your Account each day, add any
new Purchases as of the date the transaction is posted
to your Account, and subtract any payments or credits,
unpaid interest charges, and other charges, as of the date
of posting, and outstanding Cash Advances and Balance
Transfers. This gives us the daily balance for Purchases.
Then we add all these daily balances for the Billing Cycle
together and divide the total by the number of days in the
Billing Cycle. This gives us the “average daily balance” of
Purchases. If the Previous Balance is paid in full during
the first 25 days of the Billing Cycle, the “average daily
balance” of Purchases will be considered to be $0.
(b) To get the “average daily balance” of Balance Transfers,
we take the beginning balance of your Account each
day, add any new Balance Transfers as of the date the
transaction is posted to your Account, and subtract any
payments or credits, unpaid interest charges and other
charges, as of the date of posting, and outstanding Cash
Advances and Purchases. This gives us the daily balance
for Balance Transfers. Then we add all of these daily
balances for the Billing Cycle together and divide the total
by the number of days in the Billing Cycle. This gives us
the “average daily balance” of Balance Transfers.
(c) To get the “average daily balance” of Cash Advances, we
take the beginning balance of your Account each day, add
any new Cash Advances as of the date of the transaction
and subtract any payments or credits, unpaid interest
charges and other charges, as of the date of posting, and
outstanding Purchases and Balance Transfers. This gives
us the daily balance for Cash Advances. Then, we add
all of these daily balances for the Billing Cycle together
and divide the total by the number of days in the Billing
Cycle. This gives us the “average daily balance” of Cash
Advances.
(3) Determining the Amount of the Interest Charge. The interest
charge imposed during a Billing Cycle will be determined by
multiplying each of the average daily balances of Purchases,
Balance Transfers and Cash Advances by the applicable
Monthly Periodic Rate. The Monthly Periodic Rates and the
ANNUAL PERCENTAGE RATES for Purchases, Balance
Transfers and Cash Advances imposed on your Account
during a Billing Cycle will be variable rates that are subject
to change from Billing Cycle to Billing Cycle. The variable
ANNUAL PERCENTAGE RATES for Purchases, Balance
Transfers and Cash Advances will be determined based on
the “Prime rate for the U.S.” designated in the “Money Rates”
section appearing in each issue of The Wall Street Journal. If
more than one Prime rate is designated for the U.S. on the date
of a variable rate adjustment, we may choose the highest of
such Prime rates. Any change in the Prime rate will generally
result in a change in the ANNUAL PERCENTAGE RATES for
Purchases, Balance Transfers or Cash Advances under your
Account. The amounts that your ANNUAL PERCENTAGE
RATES for Purchases, Balance Transfers and Cash Advances
change may also be affected by the Account’s maximum
ANNUAL PERCENTAGE RATE (described below). The current
variable Monthly Periodic Rates and the corresponding
ANNUAL PERCENTAGE RATES for Purchases, Balance
Transfers and Cash Advances are disclosed on the card mailer
form that accompanies your Card and this Agreement.
(a) Purchases. 0.0% Introductory APR.
For the first seven complete Billing Cycles after your
Account is opened, the ANNUAL PERCENTAGE RATE
for Purchases made under your Account will be 0.00%
(corresponding Monthly Periodic Rate: 0.00%). For these
purposes, we will deem your Account to be opened ten
days after we mail your Card to you. Beginning with the
first day of the eighth Billing Cycle after your Account is
opened, we will determine your ANNUAL PERCENTAGE
RATE for Purchases subject to an interest rate for each
Billing Cycle by adding a Margin of 9.74% to 14.74%,
based upon your creditworthiness at the time of Account
opening, to the Prime rate in effect on the last day of
the prior Billing Cycle. Your Monthly Periodic Rate for
Purchases will be 1/12 of the corresponding ANNUAL
PERCENTAGE RATE. However, in no event will your
Monthly Periodic Rate for Purchases exceed 1.50%
(corresponding ANNUAL PERCENTAGE RATE of 18%).
(b) Balance Transfers. 1.90% Introductory APR.
For the first twelve complete Billing Cycles after your
Account is opened, the ANNUAL PERCENTAGE RATE
for the outstanding balance of Balance Transfers made
under your Account will be 1.90% (corresponding
Monthly Periodic Rate: 0.158%). For these purposes, we
will deem your Account to be opened ten days after we
mail your Card to you. Beginning with the first day of
the thirteenth Billing Cycle after your Account is opened,
we will determine your ANNUAL PERCENTAGE RATE for
the outstanding amount of your Balance Transfers by
adding a Margin of 9.74% to 14.74%, based upon your
creditworthiness at the time of Account opening, to the
Prime rate in effect on the last day of the prior Billing
Cycle. Your Monthly Periodic Rate for Balance Transfers
will be 1/12 of the corresponding ANNUAL PERCENTAGE
RATE. However, in no event will your Monthly Periodic
Rate for Balance Transfers exceed 1.50% (corresponding
ANNUAL PERCENTAGE RATE of 18.00%)
(c) Cash Advances. We will determine your ANNUAL
PERCENTAGE RATE for Cash Advances for each Billing
Cycle by adding 14.75% to the Prime rate in effect on the
last day of the prior Billing Cycle. Your Monthly Periodic
Rate for Cash Advances will be 1/12 of the corresponding
ANNUAL PERCENTAGE RATE. However, in no event will
your Monthly Periodic Rate for Cash Advances exceed
1.50% (corresponding ANNUAL PERCENTAGE RATE of
18.00%).
(B) Other Charges.
(1) Late Payment Fee. If you do not make a payment on your
Account at least equal to the minimum monthly payment
due on your current monthly billing statement within ten (10)
days of the payment due date shown on your current monthly
billing statement, you agree to pay a late payment fee of up
to $15.00. The late payment fee will be reflected in the New
Balance of your Account.
(2) Returned Payment Fee. You agree to pay a returned payment
fee of up to $25 whenever your payment, whether in the form
of a check or other instrument or an electronic payment, is
returned to us unpaid because of an insufficient balance in
your deposit account. The returned payment fee will be
reflected in the New Balance of your Account.
(3) Balance Transfer Fee. Each time you transfer all or part of the
balance of another loan or credit card account to your Account
with us, we will assess a Balance Transfer fee equal to 3% of
the amount of the Balance Transfer, up to a maximum of $50
per Balance Transfer. The Balance Transfer fee will be reflected
in the New Balance of your Account.
(4) Cash Advance Fee. Each time you obtain a Cash Advance
under your Account, we will assess a Cash Advance fee
equal to 3.0% of the amount of the Cash Advance. The Cash
Advance fee will be reflected in the New Balance of your
Account.
(C) Security Interest. If we now or hereafter hold any title, mortgage,
chattel mortgage, assignment, pledge, or security interest in any of
your property, it may be that the terms of the instrument creating
such title, mortgage, chattel mortgage, assignment, pledge, or
security interest will also secure your obligations on the Account. If
you have mortgaged or otherwise granted in favor of us a security
interest or shall hereafter mortgage or otherwise grant in favor of
us a security interest in your personal residence as collateral or
as security for any indebtedness now or hereafter owed to us, it
is hereby understood and agreed that we hereby waive any claim,
right, mortgage, or security interest we might acquire against your
personal residence as collateral or as security for any obligation
to us arising from or on the Account, from the use of any Card, or
under this Agreement. We expressly reserve all rights not expressly
waived in this Agreement under any mortgage or security interest
we may have in your personal residence.
(D) Your Liability for Unauthorized Use of Your Card. You may be
liable for the unauthorized use of your Card. You will not be liable
for unauthorized use that occurs after you notify us at
Hancock Whitney Bank
Credit Card Center
PO Box 61750
New Orleans, LA 70161-1750
1-800-448-8812
orally or in writing of the loss, theft, or possible unauthorized use.
In any case, your liability will not exceed $50.
(E) Your Billing Rights: Keep This Document For Future Use.
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, or if you need more
information about a transaction on your statement, write to us on a
separate sheet at the address listed on your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake. If you need more information, describe the item
you are not sure about.
. . . CONTINUED ON REVERSE SIDE

JOB SPECS:
Flat Size:
6.75” x 26.75”
Finished Size:
6.75” x 3.5”
Colors:
Front: Black
Back: Black
Bleed: None
Note: Removed (R) from
Section 1 because it was
a duplicate of (Q)

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct. In
your letter, give us the following information:
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address; and the
purchase price must have been more than $50.00. (Note:
Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not have fully paid for the purchase. If all of the
criteria above are met and you are still dissatisfied with the
purchase, contact us in writing on a separate sheet at the
address listed on your statement.
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.
12. Minimum Monthly Payment. The Cardholder shall pay at least the
minimum payment due shown on the monthly billing statement. The
minimum monthly payment will always be rounded up to the nearest
dollar. If the Cardholder fails to pay the minimum monthly payment, the
Cardholder’s and any Authorized Users’ right to use the Account and any
Card may be revoked or terminated. The Cardholder shall have the right
to pay an amount in excess of the minimum monthly payment or the
entire unpaid balance due on the Account at any time. The Cardholder
shall send the minimum monthly payment to the Bank at its designated
payment address provided on the monthly billing statement so that
it will be received on or before the payment due date shown on the
applicable monthly billing statement. The minimum monthly payment
each month shall be the greater of (i) $10.00 or (ii) 2% of the total
outstanding balance due on the Account as of the monthly billing date or
(iii) the total of any interest charge and all outstanding charges and fees.
If applicable, the minimum monthly payment will also include the greater
of the past due amount of any prior minimum monthly payments or the
amount by which the outstanding unpaid balance exceeds the approved
credit limit on the Account. If the total outstanding unpaid balance due
on the Account is less than $10.00, the minimum monthly payment due
shall be such balance. The Cardholder may prepay the Account in whole
or in part at any time without penalty. Any partial prepayment shall not
affect the obligation to make subsequent minimum monthly payments,
and an interest charge will continue to accrue on any remaining balance
on the Account. An increase in the ANNUAL PERCENTAGE RATE may
increase the Cardholder’s interest charges, minimum monthly payment
amount, and/or number of minimum monthly payments required to be
made.
13. Application of Payments and Credits. We will apply minimum monthly
payments we receive, as well as credits to your Account other than
payments, to your Account indebtedness in the order we deem
appropriate. Payment amounts in excess of the minimum monthly
payment will be applied first to the balance with the highest ANNUAL
PERCENTAGE RATE and then to each successive balance bearing the
next highest ANNUAL PERCENTAGE RATE.
Any payment received by the Bank at its designated payment address
provided on the monthly billing statement prior to 5:00 P.M. CST on a
banking day shall be credited to the Account as of the date the payment
was received, but the Bank shall have the right to limit the amount of
credit available for the Account based on a payment until the check or
other payment instrument is actually paid by the drawee. There may be
a delay in crediting any payments received by the Bank at its designated
payment address provided on the monthly billing statement after
5:00 P.M. CST on any date.
14. Irregular Payments. If the Cardholder or any other person or entity,
including without limitation, a Cardholder on a joint Account or an
Authorized User, marks a check, money order, or other instrument given
for payment on the Account “Paid in Full” or with a similar phrase, the
Bank shall have the right to accept the payment, disregard the markings
and the Cardholder shall remain obligated to pay in full any remaining
amounts owed to the Bank on the Account. The Bank has the right to
accept late payments or partial payments without losing any of its rights
under this Agreement.
15. Ownership of Cards. All Cards are owned by and are the property of the
Bank. All Cards must be returned to the Bank immediately upon demand
from the Bank. The Cardholder shall destroy any Card the Bank requests
the Cardholder to destroy by cutting the Card in half, and upon the
Bank’s request, the Cardholder shall hand deliver or mail the destroyed
Card to the Bank.
16. Foreign Exchange/Currency Conversions/International Transactions.
If you use your Card for transactions in a currency other than U.S. Dollars,
the exchange rate between the transaction currency and the billing
currency used for processing International Transactions is selected by
the applicable network (e.g., Visa, Mastercard, Cirrus, Plus, etc.). We do
not determine the currency conversion or exchange rate that is used. If
the applicable network is Visa, the exchange rate is a) a rate selected by
Visa from the range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from the rate
Visa itself receives, or b) the government-mandated rate in effect for the
applicable central processing date. The exchange rate that is in effect on
the processing date may differ from the rate in effect on the transaction
date or the posting date. If the transaction is a refund, and the refund
has a different processing date, then the exchange rate of the refund can
be greater/less than that of the original transaction. You agree to accept
the converted amount in U.S. dollars. An “International Transaction” is
defined as any transaction where the Bank’s country (the United States)
is different than the country where the transaction was completed (i.e.,
where the merchant is located), whether or not a currency conversion is
involved (i.e., even if the transaction is conducted in U.S. dollars).
17. Loss or Theft of a Card. The Cardholder shall notify the Bank
immediately of the loss, theft, or unauthorized use of a Card by
calling the Bank at 1-800-844-4450. Cardholder will cooperate with
Bank’s reasonable investigation of any claim of unauthorized use of
Cardholder’s Card, including providing a written signed statement
regarding the unauthorized use.
Additionally, if the Cardholder has any questions about the Card or how
it works, other than billing inquiries, mistakes, or disputes, please call us
at 1-800-844-4450. If you have billing questions, mistakes, or disputes
to ask or report, please follow all the instructions herein or on your
monthly billing statement.
18. Refunds and Adjustments. If any merchant or business agrees to
give the Cardholder or any Authorized User a refund or adjustment in
connection with a Purchase, the Cardholder shall accept a credit to the
Account in lieu of a cash refund or adjustment.
19. Honoring the Card. The Cardholder agrees that neither the Cardholder
nor any Authorized User shall have any legal claims or rights against
the Bank if a merchant, business, or financial institution refuses for any
reason whatsoever to accept a Card.
20. Credit Reports. The Cardholder authorizes the Bank to report the
Cardholder’s performance under this Agreement to credit reporting
agencies and to any other person or entity who may properly receive
such information, and the Bank shall have the right to obtain reports
of the Cardholder’s credit history from credit reporting agencies and
to make any credit, employment, and investigative inquiries that the
Bank in its sole discretion deems appropriate in connection with any
extension of credit on the Account or the collection of amounts owing
on the Account.
21. Refusal to Honor Credit Requests. The Bank shall have the right to
deny access to credit on the Account or to refuse to honor any Card,
even though the Account has not been terminated or closed, if any of the
following events occur:
(a) The Cardholder does not make at least the minimum monthly
payment due shown on the most recent monthly billing statement
on or before the payment due date;
(b) The Cardholder becomes delinquent on any other obligation owed
to the Bank or on any obligation owed to any other person or entity;
(c) The Cardholder or any Authorized User exceeds the approved credit
limit;
(d) A request for additional credit on the Account would cause the
approved credit limit to be exceeded;
(e) The Bank is advised by a credit reporting agency or by any other
appropriate source that the Cardholder’s financial condition has
deteriorated significantly;
(f) The Cardholder’s debt owed to, or the Cardholder’s available
unused credit line from, other lenders becomes excessive in the
Bank’s sole opinion;
(g) The Cardholder dies, becomes imprisoned, is declared legally
incompetent, or becomes insolvent;
(h) The Cardholder gives false or misleading information to the Bank at
any time;
(i) The Bank has reasonable cause to believe that the Cardholder will
not be able to repay the amounts owed to the Bank, for any reason,
including, but not limited to, the Cardholder’s unemployment;
(j) A proceeding has been filed by or against the Cardholder for
bankruptcy, arrangement, reorganization, or any other relief

afforded debtors or affecting rights of creditors generally under the
United States Bankruptcy Code or under any state or federal law;
(k) The Cardholder has sent the Bank more than one payment within
a twelve (12) month period that has been returned unpaid for any
reason;
(l) The Cardholder has notified the Bank or the Bank has otherwise
determined that a Card has been lost or stolen; or
(m) The Cardholder fails to comply with any terms or conditions of this
Agreement.
The Cardholder agrees that neither the Cardholder nor any Authorized
User shall have any legal claims or rights against the Bank if, for the
reasons set forth above, the Bank denies or rejects a request from the
Cardholder or any Authorized User for credit or for the use of the Card
or the Account.
22. Default. If any of the events listed in Section 21 above occurs, the Bank
(a) shall have the right to declare the Cardholder and the Account to be in
default under this Agreement without giving prior notice to the Cardholder
and (b) shall have the right to declare any amounts owed to the Bank
on the Account to be immediately due and payable without notice or
demand. The Bank’s acceptance of any payment on the Account after
the Cardholder has been declared to be in default shall not waive the
default. After the Cardholder has been declared to be in default, neither
the Cardholder nor any Authorized User shall be permitted to use a Card
or the Account to obtain Cash Advances or to make Purchases or to
obtain credit from the Bank on the Account in any other manner. If the
Bank refers the Account to an attorney for collection after the Account
has been declared to be in default, the Cardholder agrees to pay the
reasonable fees of the attorney, not to exceed 25% of the unpaid debt
after default or the maximum amount permitted by applicable law; and,
to the extent permitted by applicable law, all other charges, fees, and
costs incurred by the Bank in connection with collecting the amounts
due and owing on the Account. The Bank’s failure to exercise or the
Bank’s delay in exercising any of its rights under this Agreement shall
not be deemed a waiver of those rights and shall not be deemed a waiver
of the Bank’s right to later exercise its rights under this Agreement.
23. Closing the Account. The Bank shall have the right to close, terminate,
or cancel the Account at any time, and, in this case, the Cardholder
agrees to pay the Bank all amounts due as required in this Agreement
unless the Cardholder is in default under this Agreement and the Bank
requires immediate payment of the entire outstanding unpaid balance
on the Account. If immediate payment of such balance is required,
the Bank shall also have the right to require immediate payment of
any other obligations owed by the Cardholder to the Bank. Without
limiting the foregoing, the Bank shall have the right to close the Account
if the Account has been inactive for six (6) consecutive months. The
Cardholder may close, terminate, or cancel the Account at any time
by notifying the Bank in writing and returning all Cards issued in
connection with the Account. The Cardholder shall remain liable for
continued charges against the Account after the Account is closed
by the Cardholder until and unless all Cards have been returned to the
Bank. Each joint Cardholder authorizes each other Cardholder to close
or terminate the Account by written notice to the Bank. All Cardholders
shall remain jointly, severally, and solidarily liable for the payment of
all outstanding unpaid amounts due on the Account. If a joint Account
is terminated, any approval of a new Visa Classic or Platinum Card
account application by a former joint Cardholder may be conditioned by
the Bank upon the repayment of the entire outstanding unpaid amounts
due on the Account prior to the opening of an account pursuant to the
new application.
24. Change in Terms. Subject to any requirements under law, the Bank
shall have the right to change any of the terms of this Agreement at
any time whatsoever. The Cardholder shall be given any prior written
notice of the change that is required by law, either by including a notice
on the monthly billing statement or by sending a separate notice to
the Cardholder. Subject to any requirements of applicable law, any
amendment to this Agreement shall become effective at the time stated
in the Bank’s notice to the Cardholder, and, subject to any requirements
of applicable law, the amendments to this Agreement shall apply to
all outstanding unpaid indebtedness on the Account at the time the
amendments are effective and to all new transactions on the Account
after the amendments become effective. If, under applicable law, the
Cardholder’s approval is required for any amendment to this Agreement,
that approval may be evidenced by the Cardholder’s written consent
to the amendment or, as permitted by law, by the use of a Card or the
Account by the Cardholder or any Authorized User after the date of the
notice that was given by the Bank to the Cardholder, which date may or
may not be the date the amendment becomes effective. If the Cardholder
does not agree to a change in the terms of this Agreement that requires
the Cardholder’s approval, the Cardholder may pay off under the terms
of this Agreement prior to its amendment all indebtedness owed on the
Account prior to the date that the amendment becomes effective, but,
in that case, neither the Cardholder nor any Authorized User shall have
the right to use the Account or any Card after the amendment becomes
effective.
25. Transfer of the Account. The Bank shall have the right to assign and
transfer to another person or entity, at any time without prior notice to the
Cardholder, the Bank’s rights under this Agreement and any or all of the
obligations of the Cardholder owed to the Bank under this Agreement or
on the Account. The Cardholder’s rights under this Agreement shall not,
however, be transferred by operation of law or by the Cardholder, but all
of the Cardholder’s obligations under this Agreement shall be binding on
the Cardholder’s estate, heirs, legatees, and personal representatives.
26. Notices. The Bank shall send all monthly billing statements and any
notices in connection with the Account to the Cardholder’s address as
shown in the Bank’s most recent records. The Cardholder agrees to
give the Bank notice of any change in the Cardholder’s address at least
fifteen (15) days prior to the change. Any notices from the Cardholder
to the Bank, including a notice of a change of address, shall be effective
when received by the Bank at the Bank’s address for receipt of payments
shown on any monthly billing statement mailed by the Bank to the
Cardholder within the preceding sixty (60) days. The Bank shall have
the right to accept corrections or changes to the Cardholder’s address
from the United States Postal Service. If the Account is a joint Account,
the Bank may send monthly billing statements and notices to any
Cardholder and shall not be responsible or liable for sending statements
or notices to any other Cardholder.
27. Captions and Headings. Captions and headings used in this Agreement
are intended solely for convenience of reference and shall not be
deemed to be a substantive part of this Agreement.
28. Governing Law. This Agreement, the Account, and the Bank’s rights and
duties and the Cardholder’s rights and obligations under this Agreement
and on the Account shall be governed by and interpreted in accordance
with federal law and the laws of the State of Louisiana. If and to the
extent the choice of such laws is not fully effective, the mandatory laws
of the state where the Cardholder resides shall govern this Agreement
and the Account. The Account and the Cards have been applied for,
considered, approved, and issued or opened in the State of Louisiana,
and all extensions of credit under this Agreement are being made by the
Bank in the State of Louisiana.
29. Severability. If any term, provision, or section of this Agreement is
held to be invalid or unenforceable under any statute, court decision, or
governmental rule or regulation, the remainder of this Agreement shall
remain in full force and effect.

IMPORTANT INFORMATION ABOUT THE MILITARY
LENDING ACT—
ADDITIONAL TERMS AND CONDITIONS FOR ACTIVE DUTY
SERVICEMEMBERS AND DEPENDENTS
The following additional disclosures and terms will apply to this Agreement
and your Account if one or more of you is a “covered borrower,” as that
term is defined in the Military Lending Act, 10 U.S.C. § 987, and related
regulations of the U.S. Department of Defense. Please read the following
additional disclosures and terms, which will be applicable to this Agreement
and your Account.
Nothing contained in this Agreement shall constitute a waiver of your
right to legal recourse under any otherwise applicable provision of State
or Federal law, including any provision of the Servicemembers Civil
Relief Act (50 U.S.C. App. 501 et seq.) or the Military Lending Act ( 10
U.S.C. 987) and related regulations. Any provision of this Agreement
which may be deemed contrary to or a violation of the aforementioned
State or Federal laws shall be severed and deleted from this Agreement,
but shall not invalidate the other remaining provisions of this Agreement.
All other remaining provisions of this Agreement shall remain in full force
and effect.
Notwithstanding anything contained in this Agreement to the contrary,
any prohibited notice, waiver, right of setoff, arbitration, or other
terms and conditions under the Military Lending Act (10 U.S.C. 987)
and related regulations of the U.S. Department of Defense that would
otherwise be applicable to non-covered borrowers, including, but not
limited to, any such terms in those Sections of the Agreement entitled
“Credit Limit,” “Security Interest,” “Default,” “Closing the Account,”
Change in Terms,” “Transfer of the Account,” and “Notices,” shall not
be enforceable against you, as a covered borrower, with respect to this
Agreement, your Account, or any extension of credit covered by this
Agreement. As it relates to any covered borrower, any such terms of
this Agreement which may be deemed prohibited by or a violation of
the aforementioned Military Lending Act and related regulations of the
U.S. Department of Defense shall be severed and deleted from this
Agreement, but shall not invalidate the other remaining provisions of
this Agreement. All other remaining provisions of this Agreement shall
remain in full force and effect.
Any separate agreement to arbitrate disputes you may have with us shall
not be enforceable against any covered borrower, or person who was
a covered borrower when the agreement was made, with respect to
this Agreement, your Account, or any extension of credit covered by
this Agreement.
Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a
credit card account).
Payment Obligation: Federal law requires that you receive a clear description
of your required payments. Please review the disclosures and this Agreement
carefully to understand your payment obligations.
Please call (800) 448-8812 to receive a Statement of the Military Annual
Percentage Rate and a description of your payment obligation

IMPORTANT INFORMATION ABOUT PROCEDURES FOR
OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money laundering
activities, Federal law requires all financial institutions to obtain, verify, and
record information that identifies each person who opens an account.
What this means for you:
• When you open an account, we will ask for your name, address, date of
birth, and other information that will allow us to identify you.
• We may also ask to see your driver’s license or other identifying
documents.
If you fail to provide the required information or documents used to verify your
identity within a reasonable period of time of establishing an account, we will
initiate procedures to restrict access to or close your account.
Hancock Whitney thanks you for your understanding and for joining us in
securing a safer tomorrow.
Member FDIC
F03-W940-5

